           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       OFFICE OF DISABILITY
     ADJUDICATION AND REVIEW
     DECISION-WRITING PROCESS

    November 2010   A-02-09-19068




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      November 17, 2010                                             Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Office of Disability Adjudication and Review Decision-Writing Process (A-02-09-19068)


           OBJECTIVE
           The objective of our review was to determine the impact of the Findings Integrated
           Templates (FIT) and the Decision Writer Statistical Index (DWSI) initiatives on the
           timeliness and quality of written decisions.

           BACKGROUND
           The Office of Disability Adjudication and Review (ODAR) administers the hearings and
           appeals process for the Social Security Administration (SSA). Applicants have the right
           to appeal any decision SSA makes on whether they are entitled to Social Security
           benefits or eligible for Supplemental Security Income payments. If SSA determines an
           individual no longer meets the requirements for such benefits or payments, or finds that
           an individual is overpaid, he or she has the right to request a review of SSA’s decision.
           Administrative law judges (ALJ) review evidence presented by applicants and/or
           medical and vocational experts, including testimony presented at hearings, and make
           an independent decision to allow or deny the applicants’ disability claims.

           If an applicant disagrees with an ALJ’s decision, he or she may file a request for review
           with the Appeals Council (AC). The AC will grant a request for review if there appears
           to be an abuse of discretion by the ALJ, there is an error of law, substantial evidence
           does not support the ALJ’s decision, or there is a broad policy or procedural issue that
           may affect general public interest. 1 If the AC decides to review a case, it will either
           decide the case itself or return it to an ALJ for further review. 2




           1
               20 C.F.R. §§ 404.970 and 416.1470.
           2
               20 C.F.R. §§ 404.967 and 416.1467.
Page 2 - The Commissioner


If the applicant disagrees with the AC’s decision, or if the AC decides not to review the
applicant’s case, he or she can obtain a review by filing a civil suit in a Federal district
court. 3 SSA’s Office of the General Counsel (OGC) is responsible for processing and
handling litigation.

Written Decisions

ALJs’ decisions are written in most cases by Decision Writers (DW) who are generally
paralegals or attorneys. ALJs provide instructions to DWs on the content needed in
each decision. Per a March 2010 memorandum from the Chief ALJ, 4 ALJs are
responsible for providing clear directions on the rationale supporting the resolution of
each issue necessary to reach the ultimate decision on the claim. The ALJ’s
instructions must cite the pertinent evidence or testimony and any observations or
comments regarding credibility. DWs are responsible for providing an adequate draft
decision that is factually correct; complies with the drafting instructions; is prepared in a
timely manner; is persuasive; properly analyzes the legal issue of the claim; has proper
spelling, punctuation, and grammar; and includes an adequate rationale for each
finding.

FIT was released to all hearing offices in January 2006. FIT was designed to address
quality issues in ALJ decisions, notably legal error or poorly articulated rationale. With
FIT, a DW does not have to cut and paste from old decisions to prepare the most
common types of decisions. FIT provides more than 2,000 templates in 14 categories
that cover the majority of decisional outcomes. Each template provides an analytical
framework designed to ensure the relevant issues are addressed in a decision.

SSA implemented the DW Productivity Improvement initiative, which was subsequently
renamed DWSI, in Fiscal Year (FY) 2007 to improve the timeliness of the draft
decisions the ALJs receive from DWs and to assess DW productivity. According to the
Commissioner’s May 2007 testimony to the Senate Finance Committee summarizing
initiatives to eliminate SSA’s hearings backlog, DWSI has three parts: (1) advising DWs
on how long it should take, on average, to draft decisions; (2) encouraging supervisors
to assign work in smaller units more frequently; and (3) publishing a monthly Decision
Writer Performance Report by hearing office and region. The Commissioner stated that
drafting legally sufficient decisions, absent any special circumstances, should take, on
average, 4 hours for fully favorable decisions and 8 hours for partially favorable or
unfavorable decisions.5




3
    The Social Security Act § 205(g), 42 U.S.C. § 405(g).
4
 “Message from the Chief Judge on Quality Decisions” from Frank A. Cristaudo to all Hearing Operations
Personnel, March 19, 2010.
5
 Testimony of Michael J. Astrue, Commissioner of Social Security, before the Senate Finance
Committee, May 23, 2007. http://mwww.ba.ssa.gov/legislation/testimony_052307_addendum.htm.
Page 3 - The Commissioner


To determine the effectiveness of the FIT and DWSI initiatives, we reviewed
decision-writing statistics and surveyed 171 DWs, 131 ALJs, and all 13 administrative
appeals judges (AAJ) from the AC. We also interviewed Headquarters-based
employees of SSA’s OGC.

RESULTS OF REVIEW
While the average number of decisions drafted by DWs each day had increased slightly
since FIT and DWSI were introduced, we were unable to determine whether the
recommended decision-writing timeframes established by DWSI were met. ODAR did
not measure decision-writing times in its Case Processing and Management System
(CPMS)—ODAR’s management information system. In terms of quality, FIT helped
provide uniformity and consistency in written decisions, and the percentage of
remanded cases from the AC was lower after FIT and DWSI were introduced. Still, staff
reported FIT did not cover all possible decision-writing scenarios, and some
improvements were possible.

TIMELINESS OF WRITTEN DECISIONS

The number of decisions written in 1 day, on average, increased since the introduction
of FIT and DWSI. In FY 2009, DWs drafted 1.31 decisions per day, on average. This
increased from the 1.18 decisions written, on average per day in 2005, the year before
FIT was introduced.

                    Fiscal              Average Decisions Drafted
                     Year                    per DW per Day
                     2009                         1.31
                     2008                         1.24
                     2007                         1.20
                     2006                         1.22
                     2005                         1.18

We attempted to determine whether DWs were meeting the expected decision-writing
timeframes established by DWSI and whether there was a change in the time needed to
write decisions since FIT and DWSI were introduced. However, we were unable to do
so because ODAR’s CPMS did not track the time DWs took to write decisions. The only
statistic CPMS produced that addressed the timeliness of cases was the number of
decisions drafted per DW per day, which is displayed in the previous table. Although
ODAR published a monthly Decision Writer Performance Report, as required by DWSI,
the Report did not include how long it took DWs, on average, to draft favorable, partially
favorable, or unfavorable decisions. As such, we were unable to determine whether
decision-writing times had changed since the introduction of FIT and DWSI and whether
DWs met the goals established in DWSI.
Page 4 - The Commissioner


DW Responses on Timeliness

While we were unable to determine whether changes occurred in decision-writing
timeliness, most DWs reported that the time needed to complete decisions had
decreased or stayed the same since the introduction of FIT. Only one DW responded
that the time needed to draft a fully favorable decision increased, and 10 percent
responded that the time needed to draft a partially favorable or unfavorable decision
increased.

                 DW Responses on the Time Needed to Complete a
                                 Draft Decision since FIT
          Time Needed to              Fully Favorable            Partially Favorable or
          Complete a Draft               Decisions*             Unfavorable Decisions*
      Decreased                            43% (59)                     31% (42)
      Stayed the same                      34% (47)                     36% (49)
      Increased                             1% (1)                      10% (14)
      Did not know the impact              22% (30)                     23% (32)
     *137 DWs responded to the question in our survey on the time needed to draft a decision.
     The numbers in parentheses in the table indicate the number of respondents for each
     response.

Of the 140 DWs who responded to the questions on whether they were informed of how
long it should take to draft decisions, 134 (96 percent) were informed about the
guidelines. Of these, 87 (65 percent) DWs reported that they met those guidelines.
Sixty-three (47 percent) stated the expected time for drafting a decision established
under DWSI was reasonable; 70 (52 percent) stated the expected time was
unreasonable. Because of the lack of data on the time to draft decisions, we were
unable to independently confirm the percentage of DWs who met the DWSI guidelines.

ALJ Responses on Timeliness

As shown in the following table, almost half the ALJs responded that they did not know
the impact FIT had on decision-writing time. Of those who reported it had an impact,
most stated the time needed to draft a decision had decreased since the
implementation of FIT.

                 ALJ Responses on the Time Needed to Complete a
                                  Draft Decision since FIT
          Time Needed to               Fully Favorable           Partially Favorable or
          Complete a Draft                Decisions*             Unfavorable Decision*
      Decreased                             37% (40)                     26% (28)
      Stayed the same                       17% (18)                     22% (24)
      Increased                              1% (1)                        5% (5)
      Did not know the impact               45% (49)                     47% (51)
     *108 ALJs responded to the question in our survey on the time needed to draft a decision.
     The numbers in parentheses in the table indicate the number of respondents for each
     response.
Page 5 - The Commissioner


QUALITY OF WRITTEN DECISIONS

ALJ decisions containing legal error or lack of substantial evidence to support findings
or conclusions may be remanded by the AC to an ALJ for further proceedings.
Believing that well-written decisions should be less likely to be remanded, we reviewed
the percentage of cases remanded in FYs 2006 through 2009. The percentage of
remanded cases from the AC initially increased after FIT and DWSI were introduced,
but decreased in 2008.

                              Number of
              Fiscal         Request for            Number                Remand
               Year            Review              Remanded              Percentage 6
                             Dispositions
               2009             89,066               19,700                     22
               2008             83,407               18,765                     22
               2007             87,129               23,121                     27
               2006             93,538               23,083                     25
               2005             94,083               22,739                     24

Of the 13 AAJs, 11 responded to our survey, and all 11 partly attributed the decline in
remand rates to the implementation of FIT. They believed the templates encouraged
ALJs and DWs to draft higher quality decisions in accordance with law, regulations, and
policy. All the AAJs who responded stated that FIT played a role in providing the key
elements of a decision and improved the quality of written decisions.

However, the AAJs who responded stated that other initiatives also played a role in the
decreased remand rates. For example, a new initiative encouraged AAJs to correct
problematic ALJ decisions at the AC level if no further development at the hearing level
was required. In addition, AAJs issued more favorable decisions in conjunction with
SSA’s Aged Claim initiative. 7




6
  The remand percentage rate equals the number of remanded cases divided by the number of request
for review dispositions.
7
  The Aged Claim Initiative is discussed in our September 2009 report, Aged Claims at the Hearing Level
(A-12-08-18071), available at http://www.socialsecurity.gov/oig/ADOBEPDF/A-12-08-18071.pdf. The
Aged Claim Initiative was a plan to eliminate all cases more than 1,000 days old by the end of FY 2007.
In FY 2008, the goal was to eliminate all cases more than 900 days old, and in FY 2009, it was to
eliminate all cases more than 850 days old. For FY 2010, the goal was to eliminate all cases that were
825 days old or older.
Page 6 - The Commissioner


Of DWs surveyed who responded, 55 percent stated that FIT helped improve the quality
of decisions they wrote. The majority of DWs (64 percent) responded that using FIT
made it easier to determine the key elements of a decision, such as the date of onset,
residual functional capacity, 8 rationale, and past relevant work.

While 77 percent of ALJs also stated FIT helped them provide the key elements of a
decision, they were less convinced FIT improved the quality of written decisions. Fifty-
eight percent of the ALJs surveyed were neither more nor less satisfied with the quality
of decisions drafted by DWs since the implementation of FIT. Some of these ALJs
commented that any improvement in decision-writing quality was due to the skill of the
DW reviewing the evidence and justifying the decision properly as opposed to the use of
FIT. Similarly, 74 percent of ALJs responded that DWSI did not improve the quality of
written decisions.

Limitations of FIT

We interviewed OGC staff at SSA’s Headquarters on FIT. The staff we interviewed
reported their answers were based on comments on FIT they solicited from regional
OGC staff. There was no overall consensus as to whether FIT improved the quality and
defensibility of decisions. Some OGC staff believed the use of boilerplate language
could make decisions more defensible in jurisdictions that were already inclined to give
ALJ decisions deference, but the boilerplate language could also cause a problem.
Some FIT templates include language stating what the ALJ must consider or evaluate to
reach a decision. If the ALJ did not address all those factors or evidence, the
boilerplate language served to highlight the vulnerabilities in the decision.

Of the 11 AAJs who responded to our survey, 5 stated a lack of adequate rationale was
the most significant problem with FIT-based decisions. According to one AAJ, many
decisions contained a summary of medical evidence and a conclusion regarding the
claimant's residual functional capacity without providing a rationale to support the
findings. Per the AAJ, “. . . decisions should not rely on ‘boilerplate’ language to
address treating and non-treating source9 opinions and subjective complaints. Instead,
they should cite specific facts and evidence and explain why the ALJ accepted or
rejected the evidence.”



8
  Per SSA’s Program Operations Manual System (POMS), DI 24510.001, a residual functional capacity
assessment is an administrative determination of an individual’s capacity to perform work-related physical
and mental activities and describes what an individual is able to do, despite functional limitations resulting
from a medically determinable impairment(s) and impairment-related symptoms.
9
  Per POMS, DI 22505.001B, a treating source is an individual’s own physician, psychologist, or other
acceptable medical source who provides or has provided the individual with medical treatment or
evaluation, and has or has had an ongoing treatment relationship with the individual. If the individual’s
relationship with the source is not based on medical need for treatment or evaluation, but solely on the
individual’s need to obtain a report in support of his or her claim for disability, the medical source will be
considered a non-treating source.
Page 7 - The Commissioner


Per the DWs and ALJs surveyed, FIT did not cover all issues that arose in drafting
decisions. Specifically, FIT did not have templates to address non-disability issues,
such as overpayments, windfall offset provisions, common-law marriage, the 5-month
waiting period, excess resource cases, or paternity cases. These types of issues had to
be written outside FIT.

DWs and ALJs also reported that certain cases required a DW to place inaccurate
information in FIT that needed to be corrected later. Some examples follow.

•    In the “Later Onset” concurrent claim template, an “expired Date Last Insured
     [DLI]” 10 option was not available. If an amended onset date falls after the DLI, the
     DW could not proceed to the next phase of the template without inserting a fictitious
     date that fell before the DLI. The DW had to remember to make the correction at the
     end of the process.

•    There were instances when the appropriate categories were not available as
     options, and a DW had to insert a different age or education category for the
     claimant and correct that information later in the decision-writing process. For
     example, an individual may be in one age category on the date he or she became
     disabled but may be in the next age category on the date of the ALJ’s decision.

Of DWs who responded to a question on drafting decisions outside FIT, 76 (54 percent)
reported they drafted a percentage of their decisions outside FIT. They reported that
the reason they drafted decisions outside FIT was technical or non-disability decisions
that did not have an appropriate FIT template. Of these DWs, 57 (75 percent) drafted
5 percent or less of their decisions outside FIT. Further, 5 percent (4) reported that they
did not use FIT for 75 to 100 percent of their decisions. Three ALJs reported they used
non-FIT templates instead of FIT templates. According to one of these ALJs, “I have
my own decision-writing program, most of which I wrote prior to implementation of FIT,
which I believe is far superior to FIT.” One DW stated that none of the ALJs in his
hearing office used FIT.




10
   Per POMS, RS 00301.148.A, DLI is the last day in the last quarter when disability insured status is met.
According to POMS RS 00301.101.A, to meet insured status, an individual must have the required
number of earnings credits, called “quarters of coverage,” on his or her earnings record. For certain
benefits, the quarters of coverage must be earned within a specific timeframe. If an individual becomes
disabled after the DLI, he or she cannot be entitled to Title II benefits, but still may qualify for Title XVI
benefits. Sometimes an individual files a concurrent claim for both Title II and Title XVI benefits, alleging
he or she became disabled before the DLI, but the ALJ awards benefits based on a later date of onset—
after the DLI.
Page 8 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
Although the number of decisions drafted per day per DW, on average, had increased
since the implementation of FIT and DWSI, it was not clear whether there was a change
in the timeliness of written decisions since CPMS did not track the time needed to draft
decisions. While we were unable to determine the impact of FIT and DWSI on the
overall timeliness of the decision-writing process, they appeared to have some impact
on the quality of written decisions. Still, the staff we surveyed reported some limitations
with FIT.

Accordingly, we recommend that SSA:

1. Measure the time DWs take to draft decisions, which would allow ODAR
   management to measure the impact of initiatives implemented to reduce
   decision-writing times.

2. Determine whether guidance within FIT could be improved to better guide DWs to
   include adequate rationales for the conclusion outlined in the decisions they draft.

3. Add more templates to address non-disability issues not currently covered by FIT if it
   is cost-beneficial to do so.

4. Modify FIT to ensure DWs do not have to enter inaccurate information to make
   certain cases work within FIT.

5. Encourage DWs and ALJs to use FIT to ensure decisions are consistently drafted.

6. Identify the ALJs who use non-FIT templates and assess whether the templates they
   created provide any useful lessons on how to improve the FIT process.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with five of our six recommendations. However, it disagreed with our first
recommendation to measure the time DWs take to draft decisions. We continue to
believe it is important to measure the timeliness of the various parts of the hearing
process when trying to reduce the time it takes to finalize decisions. While the
Commissioner has stated a goal for decision-writing timeliness, the Agency currently
has no method to measure whether that goal is achieved. Measuring the decision-
writing time will allow ODAR management to determine the effectiveness of efforts to
reduce it. For the full text of the Agency comments, please see Appendix C.




                                                 Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
AAJ     Administrative Appeals Judge
AC.     Appeals Council
ALJ     Administrative Law Judge
C.F.R   Code of Federal Regulations
CPMS    Case Processing and Management System
DLI     Date Last Insured
DW      Decision Writer
DWSI    Decision Writer Statistical Index
FIT     Findings Integrated Templates
FY      Fiscal Year
ODAR    Office of Disability Adjudication and Review
OIG     Office of the Inspector General
POMS    Program Operations Manual System
SSA     Social Security Administration
                                                                      Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable sections of the Social Security Act as well as the Social
    Security Administration’s (SSA) regulations, rules, policies, and procedures.

•   Reviewed the May 23, 2007 testimony provided by the Commissioner of Social
    Security to the Senate Finance Committee on the initiatives to eliminate the hearings
    backlog.

•   Obtained annual Decision Writer Performance reports, which contained program
    data from the Office of Disability Adjudication and Review’s Case Processing and
    Management System (CPMS). The CPMS data we obtained were used to measure
    Decision Writer (DW) productivity in all 141 hearing offices for Fiscal Years 2006
    through 2009.

•   Developed a survey for DWs. The survey addressed the respondents’ assessments
    of the timeliness and quality of written decisions since the Findings Integrated
    Templates (FIT) and the Decision Writer Statistical Index (DWSI) initiatives were
    implemented. In total, we sent surveys to 171 DWs. Over 80 percent of the DWs
    responded to our survey. Some DWs did not answer every question on the survey.

•   Developed a survey for administrative law judges (ALJ). The survey addressed the
    respondents’ assessments of the timeliness and quality of written decisions since
    the FIT and DWSI initiatives were implemented. In total, we sent surveys to
    131 ALJs. Over 80 percent of the ALJs responded to our survey. Some ALJs did
    not answer every question on the survey.

•   Developed a survey for administrative appeals judges (AAJ). The survey addressed
    the respondents’ assessments of the quality of written decisions and impact on
    remand rates since the FIT and DWSI initiatives were implemented. We sent
    surveys to all 13 AAJs and 11 (85 percent) responded to our survey. Some AAJs
    did not answer every question on the survey.

•   Met with regional Office of Disability Adjudication and Review personnel to
    determine the functions of CPMS relevant to decision-writing. We also inquired
    whether any data relevant to timeliness on the Decision Writer Performance reports
    were vulnerable to manipulation and whether there was any possibility of
    unauthorized access to the CPMS database.




                                           B-1
•   Interviewed staff from SSA’s Office of the General Counsel to determine whether FIT
    helped make written decisions more legally defensible in court.

We conducted our audit in the New York Audit Division between January and
April 2010. We found the data used for this audit were sufficiently reliable to meet our
objective. The entity audited was the Office of the Deputy Commissioner for Disability
Adjudication and Review. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




                                           B-2
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM


Date:      October 22, 2010                                                       Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor
           to the Commissioner

Subject:   Office of the Inspector General Draft Report, “Office of Disability Adjudication and Review
           Decision-Writing Process” (A-02-09-19068) -- INFORMATION


           Thank you for the opportunity to review the subject draft report. Please see our attached
           comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Rebecca Tothero, Acting Director, Audit Management and Liaison Staff, at (410) 966-6975.

           Attachment




                                                          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“OFFICE OF DISABILITY ADJ UDICATION AND REVIEW DECISION-WRITING
PROCESS ” (A-02-09-19068)

We offer the following:

GENERAL COMMENTS

The objective of your review was to determine if the Findings Integrated Templates (FIT) and
the Decision Writer Statistical Index (DWSI) had an impact on the timeliness and quality of
written decisions. While you do not say it, we believe your findings support our view that FIT
and DWSI are successful initiatives. You state, “[T]he average number of decisions drafted by
DWs each day had increased slightly on average since FIT and DWSI were introduced,” and you
present data showing that the number had increased from 1.18 to 1.31 in five years. We do not
consider this a “slight” improvement, as you have characterized it; an 11 percent increase in
productivity is significant. We expect that trend to continue.

In addition, and as we explain below, we already comply with many of your recommendations.
Several of them deal with making improvements to FIT -- which we do routinely. We also
invest in applications that look toward next-generation technologies to build on our success with
FIT.

RESPONSES TO RECOMMENDATIONS

Recommendation 1

“Measure the time DWs take to draft decisions, which would allow ODAR management to
measure the impact of initiatives implemented to reduce decision-writing times.”

Response

We disagree. We designed DWSI to compile performance data at an aggregate level, not by
individual decision writer (DW). DWSI provides managers with important data, and they use it
to measure overall productivity and the effectiveness of our initiatives. It is a valuable tool as is,
and we have no need to modify it to produce individual DW information.

Recommendation 2

“Determine whether guidance within FIT could be improved to better guide DWs to include
adequate rationales for the conclusion outlined in the decisions they draft.”

Response

We agree and will continually update and improve FIT. For example, in our July 2010 release,
we provided a template to help DWs when they draft decisions involving overpayments. In
addition, we assist DWs by making FIT template guidance available on the FIT website. We


                                                 C-2
 also use a dedicated mailbox to answer questions, address comments, and consider suggestions
on how to improve the FIT process.

Recommendation 3

“Add more templates to address non-disability issues not currently covered by FIT if it is
cost-beneficial to do so.”

Response

We agree and will continue efforts similar to those described under recommendation 2 above.
In addition, we are currently evaluating potential options for non-disability template(s) for future
releases.

Recommendation 4

“Modify FIT to ensure DWs do not have to enter inaccurate information to make certain cases
work within FIT.”

Response

We agree. We continually review FIT processes and work to identify opportunities for
improvements. Where we identify possible enhancements in the future, we will make them to
the extent we have the resources available.

Comment

This recommendation relates to the “Limitation of FIT” issues you discuss on pages 6 and 7.
You state, “DWs and ALJs also reported that certain cases required a DW to place inaccurate
information in FIT that needed to be corrected later.” You provide two examples on page 7.

The first example reads:

•   In the “Later Onset” concurrent claim template, an “expired Date Last Insured [DLI]” option
    was not available. If an amended onset date falls after the DLI, the DW could not proceed to
    the next phase of the template without inserting a fictitious date that fell before the DLI. The
    DW had to remember to make the correction at the end of the process.

Response

We modified the FIT template and corrected this in an August 2010 FIT release.




                                                C-3
The second example reads:

•   There were instances when the appropriate categories were not available as options, and a
    DW had to insert a different age or education category for the claimant and correct that
    information later in the decision-writing process. For example, an individual may be in one
    age category on the date he or she became disabled but may be in the next age category on
    the date of the ALJ’s decision.

Response

We are currently reviewing this issue.

Recommendation 5

“Encourage DWs and ALJs to use FIT to ensure decisions are consistently drafted.”

Response

We agree and already encourage administrative law judges (ALJ), attorney adjudicators, and
DWs to use FIT to draft decisions. For example, our Chief ALJ issued a memorandum to that
group on September 29, 2010 and stated that “FIT dismissal templates are excellent tools that
help prepare legally sufficient dismissal orders by propagating the required case information into
the order and prompting the author for the necessary rationale.” In addition, we provide a FIT
user guide and other information via the Intranet. We train new DWs and ALJs on how to
use FIT and provide videos-on-demand via the Office of Learning’s website. Finally, we
operated FIT booths at all of the annual national judicial education programs and used that time
to encourage ALJs to use FIT.

Recommendation 6

“Identify the ALJs who use non-FIT templates and assess whether the templates they created
provide any useful lessons on how to improve the FIT process.”

Response

We agree. You provided us the names of the three ALJs you mentioned on page 7. We are
reviewing their methods to determine if they have wider application to FIT processes. We will
continue to solicit input from all FIT users via the techniques we describe above.

FINAL COMMENT

While we agree with most of your recommendations, we consider all six closed for tracking
purposes. As our responses indicate, we are already complying with most of your suggestions,
and we will always be looking to improve our processes.




                                               C-4
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, New York Audit Division

   Christine Hauss, Audit Manager

Acknowledgments

In addition to those named above:

   Charles Zaepfel, IT Specialist

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-02-09-19068.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
